                                                             ADVISORY




    RECOVERY OVERSIGHT ADVISORY
    Bureau of Land Management’s National Operations Center




Report No.: ROO-ROA-BLM-3005-2010                       November 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                            (' ~ ..   0   1   !O!D


To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:          Robert A. Knox   ~T ~
               Assistant Inspe60r' O;nehl    fur¥covery Oversight
Subject:       Recovery Oversight Advisory - Bureau of Land Management's National
               Operations Center (ROO-ROA-BLM-3005-20 I 0)

       This advisory regarding Bureau of Land Management's (BLM) National Operations
Center (NOC) is part of our ongoing efforts to oversee and ensure the accountability of funding
appropriated to the U.S. Department of the Interior (001) in the American Recovery and
Reinvestment Act of2009.

       We received an allegation in March 2010, which stated the Acquisition Branch of the
BLM NOC was violating provisions of Public Law 92-582, also known as the Brooks Act. The
Brooks Act identifies specific procedures for awarding contracts for architect-engineer services.
We conducted a review of the allegation at issue and subsequently found BLM NOC to be in
compliance with the Brooks Act.

Background and Findings

       The Brooks Act was enacted in 1972 to standardize Government procedures for the
award of architecture and engineering services contracts and to ensure that contract awards are
based on technical qualifications and specialized experience. The theory behind this law was that
the lowest price bidder may not always be the most technically capable firm to design safe
Government buildings and structures. The primary consideration in awarding these types of
contracts should be the technical capabilities of the firm, not the cost to complete the project.

        The Brooks Act clearly states that the responsible Government acquisition office should
identify the top technically qualified firms in response to solicitations, and then undertake
negotiations with contractors in order of their competence and qualifications until a fair and
reasonable price is obtained from a qualified firm. The allegation we received stated that the
Acquisition Branch, BLM NOC, violated the Brooks Act because it requested and considered
price information from potential contractors regarding architecture and engineering projects. The
alleged violations involved projects that were being issued as task orders under an indefinite-
delivery/indefinite-quantity (IDIQ) contract. These contracts are often used to procure
architecture and engineering services and are awarded because the Government cannot predict
the precise quantities of services it will need during the contract period.




                               Recovery OverSight Office I Washington. DC
        We found that NOC complied with the Brooks Act regarding these IDIQ contract awards.
The IDIQ contracts were awarded based on the technical capabilities of the firms submitting the
proposals, and NOC awarded contracts to two almost identically qualified firms. A similar
procedure was used by NOC during the evaluation of the proposals at the task order level, but
NOC requested price information in their request for technical proposals from the IDIQ
awardees in certain task order solicitations. The contracting officer stated that the price
information was requested, but not considered, during the technical evaluation committee’s
deliberations. The contracting officer requested prices to streamline the procedures so that price
reasonableness could be determined after the technical evaluation committee made their rankings
of IDIQ awardees based on technical qualifications.

       Agencies are not precluded from making multiple awards for architecture and
engineering services using IDIQ procedures, provided the selection of contractors and placement
of orders are consistent with Federal Acquisition Regulation Subpart 36.6.1 The process
described by the contracting officer complies with the technical qualification selection process
required by the Brooks Act.

        We do not require a response. We will post this advisory on our Web site
(www.doioig.gov/recovery/) and Recovery.gov. Information contained in this advisory may also
be included in our semiannual reports to Congress. Please contact me if you have any questions.

cc:        Deputy Secretary, Department of the Interior
           Assistant Secretary—Policy, Management, and Budget
           Director, Office of Acquisition and Property Management
           Director, Bureau of Land Management
           Acting Director, Office of Financial Management
           Departmental GAO/OIG Audit Liaison
           Audit Liaison, Office of the Secretary




1
    FAR 16.500(d).

                                                                                                 2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
